         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Evaluation Report




       EPA Needs a Better Strategy to
       Identify Violations of Section 404
       of the Clean Water Act
       Report No. 10-P-0009

       October 26, 2009
Report Contributors:                              Ira Brass
                                                  Dan Engelberg
                                                  Byron Shumate
                                                  Danielle Tesch
                                                  André von Hoyer II
                                                  Michael Wagg




Abbreviations

§404         Section 404 of the Clean Water Act
Corps        U.S. Army Corps of Engineers
CWA          Clean Water Act
EPA          U.S. Environmental Protection Agency
FLA          Field Level Agreement
FWS          U.S. Fish and Wildlife Service
FY           Fiscal Year
MOA          Memorandum of Agreement
NRCS         Natural Resources Conservation Service
OECA         Office of Enforcement and Compliance Assurance
OIG          Office of Inspector General
OWOW         Office of Wetlands, Oceans, and Watersheds




Cover photos:   From left to right: A cooter turtle in Juniper Creek, Ocala National Forest,
                Florida; a great egret in Robinson Bayou, Panama City, Florida; and
                pickerelweeds in Juniper Creek, Ocala National Forest, Florida.
                (EPA OIG photos)
                       U.S. Environmental Protection Agency                                                  10-P-0009
                                                                                                       October 26, 2009
                       Office of Inspector General


                       At a Glance
                                                                             Catalyst for Improving the Environment


Why We Did This Review           EPA Needs a Better Strategy to Identify
We conducted this evaluation
                                 Violations of Section 404 of the Clean Water Act
to assess the U.S.
Environmental Protection          What We Found
Agency’s (EPA’s)
effectiveness at identifying     EPA lacks a systematic framework for identifying the §404 violations for which it is
violations of the Clean Water    responsible under a 1989 Memorandum of Agreement. Primarily because of its
Act (CWA) Section 404            limited field presence related to §404 violations, EPA identifies violations through a
(§404) that fall under its       passive, reactive method of relying on complaints and referrals from external
enforcement authority.           sources. An incomplete national data system and sporadic coordination with federal
CWA §404 regulates the           and State partners further impair EPA’s ability to maintain an effective §404
discharge of dredged or fill     enforcement program.
material into wetlands and
surface waters.                  EPA must develop a framework that includes a §404 enforcement strategy that
                                 includes such elements as: increased communication/coordination with
Background                       enforcement partners, a system to track repeat and flagrant violators, performance
                                 measures, and cross-training. Without an effective framework or strategy, EPA
Wetlands, lakes, streams, and    cannot be assured that it is sufficiently protecting wetlands and other surface waters
other surface waters provide a   from §404 violations involving dredged or fill activity. Further, the current system
variety of benefits, including   does not provide EPA with the necessary inputs to make informed decisions about
pollution reduction, flood       the allocation of resources for §404 enforcement.
protection, erosion control,
and critical habitat for          What We Recommend
wildlife. EPA has the lead
enforcement role for flagrant    We recommend that the Assistant Administrator for Enforcement and Compliance
or repeat violations involving   Assurance, in consultation with the Assistant Administrator for Water, develop and
cases where the violator has     implement a comprehensive CWA §404 enforcement strategy addressing issues
not applied for a valid §404     discussed in this report (such as communication with enforcement partners and a
permit from the U.S. Army        system to track violations). We also recommend that the Deputy Administrator
Corps of Engineers.              revise the 1989 Memorandum of Agreement in collaboration with the Assistant
                                 Secretary of the Army for Civil Works.
For further information,
contact our Office of
Congressional, Public Affairs    The Agency agreed to develop and implement a comprehensive CWA §404
and Management at                enforcement strategy. Although the Agency believes the enforcement strategy will
(202) 566-2391.                  clarify how it collaborates with the U.S. Army Corps of Engineers and processes
                                 referrals, and therefore may not require the 1989 Memorandum of Agreement be
To view the full report,
click on the following link:
                                 revised, we retained the second recommendation because we still believe this
www.epa.gov/oig/reports/2010/    agreement should be revised. We consider both recommendations undecided.
20091026-10-P-0009.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL


                                         October 26, 2009

MEMORANDUM

SUBJECT:               EPA Needs a Better Strategy to Identify Violations of Section 404
                       of the Clean Water Act
                       Report No. 10-P-0009


FROM:                  Wade T. Najjum
                       Assistant Inspector General for Program Evaluation

TO:                    Scott C. Fulton
                       Acting Deputy Administrator

                       Cynthia Giles
                       Assistant Administrator for Enforcement and Compliance Assurance

                       Peter S. Silva
                       Assistant Administrator for Water


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $998,055.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed-upon
actions, including milestone dates. We have no objections to the further release of this report to
the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions, please contact Dan Engelberg at (202) 566-0830 or
engelberg.dan@epa.gov, or Ira Brass at (212) 637-3057 or brass.ira@epa.gov.
EPA Needs a Better Strategy to Identify Violations                                                                          10-P-0009
of Section 404 of the Clean Water Act




                                   Table of Contents

Chapters
   1     Introduction .......................................................................................................     1

                 Purpose ......................................................................................................    1
                 Background .................................................................................................      1
                 Noteworthy Achievements ..........................................................................                4
                 Scope and Methodology .............................................................................               4

   2     EPA Lacks a Unified Framework to Manage the Section 404
         Enforcement Program........................................................................................               6

                 EPA’s Identification of §404 Violators Needs to Be More Systematic ........                                      6
                 EPA Must Improve Coordination with Enforcement Partners .....................                                    8
                 Jurisdictional Uncertainty Has Further Impaired EPA’s Ability
                         to Address §404 Violations ..............................................................                10
                 Conclusion ..................................................................................................    11
                 Recommendations .....................................................................................            11
                 Agency Response and OIG Evaluation ......................................................                        11

   Status of Recommendations and Potential Monetary Benefits..............................                                        14



Appendices
   A     Details on Scope and Methodology..................................................................                       15

   B     Agency Response .............................................................................................            18

   C     Distribution ........................................................................................................    24
                                                                                             10-P-0009




                                             Chapter 1
                                              Introduction
Purpose
                  We conducted this review to assess the U.S. Environmental Protection Agency’s
                  (EPA’s) enforcement role in protecting federally regulated wetlands, streams, and
                  other surface waters under Section 404 (§404) of the Clean Water Act (CWA).
                  CWA §404 regulates the discharge of dredged or fill material into “waters of the
                  United States,” including wetlands and other surface waters. We focused on §404
                  enforcement because EPA has direct responsibility for certain types of §404
                  violations. We sought to answer the following question: How effective is EPA at
                  identifying violations of §404 of the CWA that fall under its enforcement
                  authority?

Background
                  Wetlands are among the Nation’s most important natural resources. They provide
                  a variety of benefits, such as pollutant reduction/removal, flood protection,
                  shoreline erosion control, carbon sequestration, and ground water recharge. As
                  primary habitats for fish, waterfowl, and wildlife, they are economically
                  important and provide numerous opportunities for education, recreation, and
                  research.

                                                                      The U.S. Fish and Wildlife
                                                                      Service (FWS) estimated that
                                                                      the continental United States had
                                                                      approximately 221 million acres
                                                                      of wetlands in the 1780s. By the
                                                                      mid-1980s, 117 million wetland
                                                                      acres had been lost; only
                                                                      approximately 104 million acres
                                                                      remained (a 53 percent loss of
                                                                      original wetlands area). Within
                                                                      this timeframe, 22 States lost
                                                                      more than 50 percent of their
                                                                      wetlands area; 10 of these States
                                                                      lost more than 70 percent (see
                                                                      Table 1-1).
Little blue heron in Juniper Creek, Ocala National Forest, Florida.
(EPA OIG photo)




                                                           1
                                                                                      10-P-0009


Table 1-1: Wetland Loss by State, 1780s–1980s
                % Original                      % Original                       % Original
                Wetlands                        Wetlands                         Wetlands
 State            Lost        State               Lost       State                 Lost
 Alabama            50        Louisiana             46       Ohio                   90
 Alaska             0.1       Maine                 20       Oklahoma               67
 Arizona            36        Maryland              73       Oregon                 38
 Arkansas           72        Massachusetts         28       Pennsylvania           56
 California         91        Michigan              50       Rhode Island           37
 Colorado           50        Minnesota             42       South Carolina         27
 Connecticut        74        Mississippi           59       South Dakota           35
 Delaware           54        Missouri              87       Tennessee              59
 Florida            46        Montana               27       Texas                   52
 Georgia            23        Nebraska              35       Utah                    30
 Hawaii             12        Nevada                52       Vermont                35
 Idaho              56        New Hampshire         9        Virginia               42
 Illinois           85        New Jersey            39       Washington             31
 Indiana            87        New Mexico            33       West Virginia          24
 Iowa               89        New York              60       Wisconsin              46
 Kansas             48        North Carolina        49       Wyoming                38
 Kentucky           81        North Dakota          49

Source: Dahl, T.E. 1990. Wetlands Loses in the United States 1780’s to 1980’s.
U.S. Department of the Interior, FWS.

Federal Regulation and Enforcement

With the 1972 passage of the CWA, the Federal Government began to regulate
the discharge of dredged or fill material into navigable waters, including wetlands
and other surface waters. Discharges of
dredged or fill material occur most
frequently from development activities (e.g.,
residential, commercial, or municipal),
infrastructure improvements (e.g., highways,
dams, and airports), mining projects, and
nonexempt agricultural activities. The CWA
gives EPA and the U.S. Army Corps of
Engineers (Corps) the ability to take
enforcement actions against those who
violate §404. The Assistant Secretary of         Fill from surface mining operations
                                                 may be discharged into surface waters
the Army for Civil Works oversees the            or wetlands. (EPA Region 3 photo)
Corps’ regulatory program.

Within EPA, two offices share responsibilities for protecting wetlands. EPA’s
Office of Water, through its Office of Wetlands, Oceans, and Watersheds
(OWOW), makes determinations on the scope of geographic jurisdiction and
exemptions, develops regulations governing the environmental factors the Corps
must consider when evaluating permit applications, and approves State and tribal


                                         2
                                                                         10-P-0009


assumption of the §404 program. EPA’s Office of Enforcement and Compliance
Assurance (OECA) enforces violations of the CWA, including violations of §404.
The Corps makes most §404 permit decisions, but in certain instances OWOW
can elevate or veto these decisions.

EPA shares §404 enforcement responsibilities with the Corps under a 1989
Memorandum of Agreement (MOA). EPA has the lead enforcement role in a
limited number of cases, including: (1) unpermitted activities that involve repeat
violators, (2) flagrant violations, (3) where EPA requests a class of cases or a
particular case, or (4) where the Corps determines that an EPA administrative
penalty action is warranted. The Corps has the lead enforcement role in all other
unpermitted cases and in all cases where there is a violation of a §404 permit. In
the 1989 MOA, EPA and the Corps agreed to:

   •   Enter into interagency agreements with other federal, State, tribal, and
       local agencies that will provide assistance to the Corps and EPA in pursuit
       of §404 enforcement activities.
   •   Enter into field level agreements (FLAs) between Corps division or
       district offices and their respective EPA regional offices to more
       specifically implement the 1989 MOA’s provisions.
   •   Where available, exchange data that would enhance either agency’s
       enforcement efforts.
   •   Begin developing a computerized list of persons who have received
       after-the-fact permits or been subject to a §404 enforcement action.

Although OECA Headquarters formally administers and manages EPA’s portion
of the federal §404 enforcement program, enforcement work is performed by
regional staff. OECA states in its National Program Managers Guidance that
regions should:

   •   Have a process for identifying, targeting, inspecting, and otherwise
       responding to illegal activities in wetlands; and
   •   Coordinate, as appropriate, with other federal agencies that have
       significant roles in wetlands protection through the use of memoranda of
       understanding and memoranda of agreement (e.g., the Corps, FWS, etc.).

The regions learn of possible §404 violations in various ways, including referrals
from the Corps or other regulatory agencies and tips from concerned citizens.
Once the regions receive a complaint, they must determine whether it actually
involves an activity that would be regulated under §404. If they find the activity
to be a §404 violation, they will then work with the Corps to determine which
agency will take the lead for that particular case. Once that determination is
made, the lead agency will initiate an enforcement action.




                                 3
                                                                                   10-P-0009


         State-level Enforcement

         Michigan and New Jersey are the only States that are authorized to implement the
         §404 program; they may prosecute §404 violations under State law. In addition,
         29 States supplement federal §404 enforcement with varying degrees of State-
         level wetlands enforcement. The remaining 19 States lack State-level
         enforcement and rely on the Federal Government for wetlands enforcement.
         States have indicated they have not pursued program authorization because their
         programs are not equivalent to the federal program and they lack federal funds for
         implementation. States are also concerned about coordinating with FWS and the
         National Marine Fisheries Service on threatened/endangered species issues.

Noteworthy Achievements
         Individual EPA regions have made some strides toward better identification of
         §404 violations. For example, during regular meetings with the St. Paul Corps
         District, Region 5 staff discuss which violations would be good candidates for
         referral to the Region under the 1989 MOA. By tracking the Corps’ enforcement
         actions (notably Notices of Violation or Cease and Desist Orders), Region 5
         officials also find out about potential repeat violators in districts that do not
         typically refer §404 violations to EPA. Region 3, meanwhile, uses the Civil Air
         Patrol to provide aerial support services for the §404 program.

         EPA staff in Regions 1, 3, 4, 7, and 8 reported that they have used construction
         stormwater (CWA §402) inspections to identify §404 violations. Regions 1 and 7
         use inspection checklists that allow their inspectors to identify violations of both
         §402 and §404. Stormwater inspectors’ reports were the foundation for two of the
         §404 enforcement actions that Region 7 pursued in 2008.

Scope and Methodology
         We conducted this review in accordance with generally accepted government
         auditing standards. Those standards require that we plan and perform the
         evaluation to obtain sufficient, appropriate evidence to provide a reasonable basis
         for our findings and conclusions based on our objectives. We believe that the
         evidence obtained provides a reasonable basis for our findings and conclusions
         based on our objectives. We performed our review from May 2008 to August
         2009.

         We used a variety of methods to evaluate EPA’s effectiveness at identifying
         unauthorized violations of §404 under its enforcement authority as outlined in the
         1989 MOA. We reviewed CWA §§309, 401, and 404; EPA and Corps policies
         and guidance documents; and current FLAs between EPA regions and Corps
         districts. We also reviewed the MOAs between EPA Regions 2 and 5 and the two
         States that can implement the §404 program (New Jersey and Michigan).



                                          4
                                                                        10-P-0009


We sent a brief information request to all 10 EPA regions. We conducted
interviews with personnel from EPA Headquarters and six regions, Corps
Headquarters and eight districts, FWS Headquarters, and the Natural Resources
Conservation Service (NRCS) Headquarters. We visited six States, two water
management districts in Florida, and a State association for conservation
commissioners. During our interviews, we discussed internal controls regarding
identification and tracking of unauthorized violations, as well as communication
and collaboration with federal and State partners.

We also judgmentally selected 59 final enforcement actions from EPA’s
Enforcement and Compliance History Online database for further review during
interviews with EPA regional staff. We did not independently verify the accuracy
or reliability of data provided by the database. We did not review the selected
final enforcement actions in EPA’s internal enforcement database, the Integrated
Compliance Information System.

There have been no recent OIG reports on §404 enforcement issues.

Further details on our scope and methodology are in Appendix A.




                                5
                                                                                     10-P-0009




                                 Chapter 2
    EPA Lacks a Unified Framework to Manage the
         Section 404 Enforcement Program
          EPA lacks a systematic framework for identifying §404 violations for which it is
          responsible under the1989 MOA. Primarily because of a limited field presence
          related to §404 violations, EPA identifies violations through a passive, reactive
          method of relying on complaints and referrals from external sources. An
          incomplete national data system and sporadic coordination with federal and State
          partners further impair EPA’s ability to maintain an effective §404 enforcement
          program. EPA must develop a framework that includes a §404 enforcement
          strategy that includes increased communication/coordination with enforcement
          partners, a system to track repeat and flagrant violators, performance measures,
          and cross-training. Without an effective framework or strategy, EPA cannot be
          assured that it is sufficiently protecting wetlands and other surface waters from
          §404 violations involving dredged or fill activity. Further, the current system
          does not provide EPA with the necessary inputs to make informed decisions about
          the allocation of resources for §404 enforcement.

EPA’s Identification of §404 Violators Needs to Be More Systematic
          Although OECA’s Fiscal Year (FY) 2010 National Program Managers Guidance
          states that EPA should have a process for identifying illegal activities in wetlands,
          EPA has no strategy beyond the 1989 MOA. This is in contrast with other CWA
          programs – such as stormwater and combined/sanitary sewer overflows – for
          which OECA has developed specific enforcement strategies. In the absence of a
          §404-specific strategy, EPA relies on external sources for information about
          violations, particularly the Corps. The Corps also only primarily learns about
          §404 violations through external sources, often from private citizens.
          Additionally, current reporting mechanisms do not always inform EPA of whether
          someone has repeatedly violated State-level wetlands protection laws.

          EPA Relies on External Sources for Violation Knowledge

          In part because of its limited field presence, all of the regions interviewed
          primarily relied on complaints, tips, and referrals to learn about §404 violations.
          For example, for Region 1 during FYs 2004-2008, citizen complaints accounted
          for 59 percent of reported violations, other government sources accounted for
          28 percent, unknown sources accounted for 10 percent, and EPA itself only
          accounted for 3 percent.

          EPA receives more referrals from the Corps than any other regulatory agency.
          For example, the Corps supplied Region 4 with 86 percent of the §404 violations
          the Region pursued in FYs 2004-2008. During the same period, every Region 8


                                            6
                                                                           10-P-0009


§404 enforcement action was the result of a Corps referral. The Corps itself takes
a reactive approach toward identifying violations, relying primarily on complaints
and referrals from external sources. Citizen complaints are the primary source for
violation information in six of the eight Corps districts interviewed and a major
source of information in the other two districts. If the Corps identifies a violation
itself, it tends to occur randomly while checking for permit compliance.

Only those States that implement the CWA §404 program (Michigan and New
Jersey) must report their wetlands compliance and enforcement activities to EPA.
Michigan lists violations of greater than 1 acre (including the violator’s name) in
its annual report to EPA. For FYs 2006-2008, Michigan reported 2,236 violations
of Parts 301 and 303 of its Natural Resources and Environmental Protection Act,
the State equivalent of §404.

The 29 States that supplement §404 with State enforcement are not authorized to
implement the CWA §404 program or obligated to report their program activities
to either EPA or the Corps. Nevertheless, several States publish their annual
wetland enforcement statistics. Some State annual reports, such as those for
Maryland, New Hampshire, and Maine, list wetland violators by name, providing
both EPA and the Corps with a list of potential repeat violators. However, during
field work interviews, no EPA regional staff stated they use these reports to
identify possible §404 cases.

While the Corps’ regulatory database may contain a violator’s past history, that
history may not include all State-level enforcement activity. In April 2009, the
Corps’ Green Bay field office was notified of a possible violation. However, it
was only after the Corps had consulted with the Wisconsin Department of Natural
Resources that it learned the State had already pursued an enforcement action in
2005 against the responsible party. There was no record of the State enforcement
action in the Corps’ regulatory database.

EPA Lacks Processes and Tools to Identify Repeat §404 Violators

EPA’s enforcement database does not provide complete §404 violation histories.
Because EPA lacks a systematic approach to assessing a violator’s prior §404
enforcement history, it may not be able to identify all repeat §404 violators,
especially if they are smaller operators. To confirm whether violators have been
subject to §404 orders in other regions, staff in Regions 3 and 8 have had to
contact staff in other regions.

Moreover, EPA staff cannot directly access the Corps’ enforcement records.
While OWOW is developing an interface with the Corps’ national regulatory
database, that interface will provide EPA staff with CWA permit and
jurisdictional data. EPA enforcement staff will still need to ask Corps staff to
query respondent violation histories on their behalf.




                                  7
                                                                                     10-P-0009


EPA Must Improve Coordination with Enforcement Partners
         EPA must improve its coordination with its §404 enforcement partners. In the
         absence of detailed national guidance on §404 referrals, EPA regions rely on
         FLAs with Corps districts. The FLAs vary both in content and the degree to
         which they are implemented, creating inconsistencies in the referral process.
         When EPA has agreements with other federal agencies, such as FWS and NRCS,
         they are often temporary or unclear. Additionally, the enormous variation in State
         wetlands enforcement programs complicates coordination efforts.

         EPA Needs to Increase Coordination with the Corps

         EPA and the Corps lack detailed procedural guidance on §404 case referrals. The
         1989 MOA provides only general details on which cases should be referred to
         EPA – specifically, “repeat or flagrant” violations where the violator is not
         covered by a §404 permit. Most regions have not developed a standard referral
         process with their corresponding Corps districts. Instead, the current process
         consists of informal collaboration agreements and personal relationships between
         EPA and Corps staff. As a result, the rationale for referring cases to EPA, as well
         as the quality of referral packages, varies from district to district.

         Officials in four of the eight interviewed Corps districts said that while the criteria
         in the 1989 MOA are evaluated and considered in referral decisions, they
         generally only refer violations to EPA if in-house resolution fails. When there is
         a violation of a permitted project, three of the interviewed districts determine
         whether to refer the violation to EPA based on the impact compared with the
         project’s original scope, while two other districts regard these activities strictly as
         violations of the §404 permit and resolve them in-house.

         In an effort to more specifically implement the 1989 MOA’s limited referral
         guidance, EPA regions have finalized supplemental FLAs with 21 of the 38 Corps
         districts (Region 1 is included but abides by an unsigned FLA). Region 4’s FLA
         with the Jacksonville Corps District requires that the lead agency status be
         determined within 15 days of the original notification of violation letter. In
         contrast, according to the Memorandum of Understanding between Region 5 and
         the St. Paul Corps District, the Region has 134 days to determine whether it wants
         to accept a referral. If a violator applies for an after-the-fact permit during this
         period when it is unclear which agency has lead enforcement status, the District
         may need to initiate a review of the permit application.

         EPA and the Corps differ in how they implement their FLAs. For example, in
         Region 4, the quantity and quality of enforcement referrals vary significantly
         between the five Corps districts with which it has FLAs. Some of the FLAs lack
         a requirement for Corps districts to report unauthorized violations to EPA regions
         and a standardized explanation of the referral process. Although the Region has




                                            8
                                                                                                    10-P-0009


                 FLAs with the Vicksburg and Mobile Corps Districts, Region 4 staff reported that
                 both Districts have essentially stopped sending referrals.

                 EPA Needs to Increase Coordination with Other Federal Agencies

                 Coordination with federal agencies other than the Corps that have wetlands-
                 related programs would provide EPA with additional resources in the field and
                 save resources when developing enforcement cases. For example, Region 3 has
                 an interagency agreement with one FWS field office on identifying wetlands
                 violations. The FWS field office reports any potential violations to the Region
                 and inspects violations reported to the field office by EPA, the State, the public,
                 and other organizations. In one case, FWS employees discovered and
                 investigated two different violations on the same property. Other regions have
                 entered into similar interagency agreements with FWS, but they are often
                 temporary and expire when funding to support the agreements runs out.

                 Lack of coordination with NRCS has created uncertainty about the types of
                 information the agency can share with EPA. As part of a 1994 MOA between
                 EPA, the Corps, FWS, and NRCS, the agencies agreed that EPA and the Corps
                 would rely on wetlands determinations made by NRCS on agricultural lands for
                 the purposes of determining §404 jurisdiction. A 2002 amendment of the Farm
                 Security and Rural Investment Act prohibited NRCS from sharing confidential
                 producer information, including wetlands delineations and determinations, to
                 agencies outside the U.S. Department of Agriculture. As a result of these
                 amendments, NRCS and the Corps both withdrew from this MOA in January
                 2005 and signed a separate bilateral agreement in February 2005. In November
                 2005, NRCS issued a directive indicating its staff could release the following
                 information to the public and federal, State, and local agencies or entities:

                     •   Maps or aerial photographs showing wetland locations/boundaries;
                     •   Site visit reports and documentation of site conditions prepared by NRCS;
                     •   Wetland determination data sheets prepared by NRCS; and
                     •   Technical determinations (e.g., functional assessments) made by NRCS.

                 Recent changes in legislation and NRCS policy created additional uncertainty
                 about whether NRCS field offices can share this information. NRCS currently
                 interprets the 2008 Farm Bill as prohibiting the release of wetlands delineations
                 and determinations to agencies outside the U.S. Department of Agriculture.1 EPA
                 must now contact the landowner directly for this information. The landowner can
                 either give NRCS permission to release this information to EPA, release the
                 information directly to EPA, or deny permission to release the information.
                 Enforcement staff from Regions 1, 4, and 7 said information about wetlands
                 determinations and delineations made by NRCS would still be useful to §404
                 enforcement efforts. In one instance, Region 1 developed an enforcement action
1
 National Bulletin 130.9.2 – Processing Freedom of Information Act Requests Under Section 1619 of the Farm Bill
(December 30, 2008). This National Bulletin expires September 30, 2009.


                                                       9
                                                                                                       10-P-0009


                   against a farm owner only to later learn that NRCS had classified the farmland as
                   exempt from §404 requirements.

                   Improved Coordination with State Agencies Would Be Beneficial

                   EPA’s formal agreements with States are limited to New Jersey and Michigan.
                   New Jersey’s and Michigan’s MOAs with Regions 2 and 5, respectively, enable
                   them to carry out the policies, regulations, and procedures necessary to administer
                   the permit program established under §404. The MOAs outline how the Regions
                   will coordinate wetlands-related enforcement activities with those States.

                   Better coordination between EPA and States that do not implement the §404
                   program would help send a more consistent message to §404 violators. Staff in
                   Minnesota’s Department of Natural Resources said they would like to see EPA or
                   the Corps take the lead in prosecuting more of the wetland fills that are exempt
                   under State law but not under §404, and better coordination could facilitate such
                   action. While no EPA regional staff reported using State wetland violation
                   reports to identify possible §404 cases, some State violation reports include
                   information on wetland fills that are exempt under State law. If EPA reviewed
                   these reports regularly, it might be better positioned to take the lead in prosecuting
                   wetland fills that are exempt under State law but not under §404.

Jurisdictional Uncertainty Has Further Impaired EPA’s Ability to
Address §404 Violations
                   Even when EPA and its partners are aware of §404 violations, they may be unsure
                   whether they have the legal authority to bring enforcement actions. Prior to 2001,
                   the scope of the CWA was fairly straightforward and could be interpreted to be
                   more expansive. In 2001, the U.S. Supreme Court’s SWANCC2 decision
                   effectively removed from CWA jurisdiction isolated waters that had previously
                   been found to be jurisdictional based solely on the presence of migratory birds.
                   The limits of CWA jurisdiction became more uncertain in 2006 after the Court’s
                   split decision in the Rapanos3 case. In a March 2008 memo, EPA reported that it
                   dropped 77 potential CWA §404 enforcement actions between July 2006 and
                   December 2007 because it was uncertain it could establish jurisdiction under the
                   CWA. In some cases, the jurisdictional uncertainty that resulted from the
                   Rapanos and SWANCC cases makes it unclear whether a §404 violation has even
                   occurred. In response to our draft report, EPA maintained that the effect of the
                   Rapanos and SWANCC decisions on its §404 enforcement program cannot be
                   overstated.




2
    Solid Waste Agency of Northern Cook County v. United States Corps of Engineers, 531 U.S. 159 (2001).
3
    Rapanos et ux., et al. v. United States, 547 U.S. 715 (2006).


                                                         10
                                                                                  10-P-0009


Conclusion
         EPA has not established a comprehensive, unified framework for its portion of the
         §404 enforcement program. EPA must develop a strategy for a comprehensive
         framework that includes guidance and controls that will allow it to effectively
         identify and resolve violations. Improved coordination with the Corps, other
         federal agencies, and the States should allow EPA to enforce §404 more
         efficiently. Without an effective framework or strategy, EPA cannot be assured
         that it is sufficiently protecting wetlands and other surface waters from §404
         violations involving dredged or fill activity. Further, the current system does not
         provide EPA with the necessary inputs to make informed decisions about the
         allocation of resources for §404 enforcement.

Recommendations
         We recommend that the Assistant Administrator for Enforcement and Compliance
         Assurance, in consultation with the Assistant Administrator for Water:

         2-1 Develop and implement a comprehensive CWA §404 enforcement strategy
             that should address, but not be limited to, the following areas:

              a. Creation of a national tracking system for complaints and referrals from
                 the Corps, as well as repeat and flagrant §404 violators;
              b. Improved communication and coordination between EPA
                 Headquarters/regions and Corps Headquarters/districts;
              c. Barriers to enhanced interagency communication (and mechanisms to
                 overcome these barriers) with the Corps, as well as other federal agencies
                 (e.g., NRCS, FWS, and Civil Air Patrol);
              d. The feasibility of leveraging other CWA program resources to more
                 systematically identify §404 violations;
              e. The adequacy of EPA’s current performance measurement system for the
                 §404 enforcement program; and
              f. Cross-training opportunities with federal, State, and other stakeholders.

         We recommend that the Deputy Administrator:

         2-2 Revise, in collaboration with the Assistant Secretary of the Army for Civil
             Works, the 1989 MOA to clarify the types of cases that should be referred to
             EPA or the Corps; the revised MOA should update the procedures for case
             referrals.

Agency Response and OIG Evaluation
         The Assistant Administrator, Office of Enforcement and Compliance Assurance,
         responded to our draft report on October 9, 2009 (see Appendix B). Overall, EPA



                                         11
                                                                          10-P-0009


agreed that it could improve the effectiveness of its §404 enforcement program by
taking a more proactive approach to detecting and enforcing violations.

EPA agreed with our first recommendation to develop and implement a
comprehensive §404 enforcement strategy. In its response, EPA indicated that it
plans to comprehensively evaluate the wetlands program and each of the
subrecommendations (a) through (f) to determine which elements are essential to
an effective enforcement strategy. For example, EPA stated that the role of field
inspections conducted by other CWA programs to discover §404 violations
should be expanded as part of the enforcement strategy. EPA indicated it may
initially pilot the developed enforcement strategy in a specific watershed, such as
the Chesapeake Bay, to determine which elements should be included in the
national strategy.

In response to our second recommendation, EPA believed that any decision about
revisions to the existing 1989 MOA with the Corps should be informed by the
implementation of the enforcement strategy. It provided alternative language for
this recommendation.

In its response, EPA explained that it often learns of §404 violations from external
sources, such as tips, complaints, or the Corps, because the CWA does not require
the public to self-report their wetlands activities to the Agency. However, EPA
agreed that while these sources can be an important part of an enforcement
strategy, they should not be the sole foundation of an effective enforcement
program. EPA also stressed that the Rapanos and SWANCC decisions greatly
impacted the amount of resources needed to determine jurisdiction. As a result,
EPA may choose to devote already limited resources to cases where jurisdiction is
less uncertain and, therefore, easier to establish.

While we commend EPA for its willingness to develop a national-level
enforcement strategy for the §404 program, it is imperative that the Agency also
implement the strategy. The Agency’s response does not address implementation
issues, nor does it provide reasonable assurance that the strategy will address
subrecommendations (a) through (f). In addition, given the wide variability in
wetlands characteristics, we are also concerned that focusing the pilot study in a
single watershed will not provide EPA with a comprehensive evaluation of the
strategy. We believe that EPA should expand the scope of its pilot study to
additional geographical areas. We encourage EPA to conduct these pilots within
defined and reasonable timeframes.

We acknowledge that the strategy development process will provide the Agency
with additional insight regarding what changes are needed to the current case
referral process. Given our findings, we still believe the 1989 MOA will need to
be revised once EPA completes the §404 enforcement strategy. Therefore, we
consider both recommendations undecided.




                                 12
                                                                       10-P-0009


The Agency’s response also included some suggested editorial revisions to clarify
certain factual issues. We have reviewed those suggestions and made changes to
the report, as appropriate.




                                13
                                                                                                                                      10-P-0009



                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                            POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                           BENEFITS (in $000s)

                                                                                                                Planned
    Rec.    Page                                                                                               Completion   Claimed    Agreed To
    No.      No.                         Subject                         Status1         Action Official          Date      Amount      Amount

    2-1       11    Develop and implement a comprehensive CWA               U        Assistant Administrator
                    §404 enforcement strategy that should address,                    for Enforcement and
                    but not be limited to, the following areas:                      Compliance Assurance,
                     a.    Creation of a national tracking system for                  in consultation with
                           complaints and referrals from the Corps, as               Assistant Administrator
                           well as repeat and flagrant §404 violators;                      for Water
                     b.    Improved communication and coordination
                           between EPA Headquarters/regions and
                           Corps Headquarters/districts;
                     c.    Barriers to enhanced interagency
                           communication (and mechanisms to
                           overcome these barriers) with the Corps,
                           as well as other federal agencies
                           (e.g., NRCS, FWS, and Civil Air Patrol);
                     d.    The feasibility of leveraging other CWA
                           program resources to more systematically
                           identify §404 violations;
                     e.    The adequacy of EPA’s current
                           performance measurement system for the
                           §404 enforcement program; and
                     f.    Cross-training opportunities with federal,
                           State, and other stakeholders.

    2-2       11    Revise, in collaboration with the Assistant             U         Deputy Administrator
                    Secretary of the Army for Civil Works, the 1989
                    MOA to clarify the types of cases that should be
                    referred to EPA or the Corps; the revised MOA
                    should update the procedures for case referrals.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                14
                                                                                       10-P-0009


                                                                                     Appendix A

                 Details on Scope and Methodology
Wetlands Enforcement Information Request

We sent a brief information request to all EPA regions about how they identify violations of
§404 of the CWA that fall under their enforcement authority as described in the 1989 MOA
between EPA and the Corps, including:

   •   How regions define flagrant and recurring violations of §404.
   •   What types of policies and guidance regions use to define/identify violations of §404.
   •   What other types of wetlands-related enforcement policies and guidance regions use,
       e.g., standard operating procedures and FLAs with Corps districts.
   •   How regions resolve lower priority violations of §404.

We received and analyzed responses to the information request from all 10 regions.

Interviews with Federal, State, and Other Organizations

We interviewed a variety of personnel from federal, State, and other organizations, including
EPA and the Corps, as follows:

 EPA                                      State
 • OECA                                   • Massachusetts Department of Environmental Protection
 • OWOW                                   • Florida Department of Environmental Protection
 • Office of General Counsel              • Georgia Department of Natural Resources
 • Region 1                               • Michigan Department of Environmental Quality
 • Region 3                               • Minnesota Pollution Control Agency
 • Region 4                               • Minnesota Department of Natural Resources
 • Region 5                               • Minnesota Board of Water and Soil Resources
 • Region 7                               • Nebraska Department of Environmental Quality
 • Region 8

 Corps                                    Other Agencies and Organizations
 • Headquarters, Regulatory Branch        • FWS - Division of Habitat and Resource Conservation
 • New England District                   • NRCS
 • Pittsburgh District                    • St. Johns River Water Management District
 • Savannah District                      • Northwest Florida Water Management District
 • Jacksonville District                  • Association of State Wetland Managers
 • St. Paul District                      • Massachusetts Association of Conservation Commissioners
 • Detroit District
 • Rock Island District
 • Omaha District



                                               15
                                                                                            10-P-0009


Our purpose during the interviews was to gain a better understanding of how these agencies and
organizations identify unauthorized violations of §404 (proactively or reactively), process known
violations, and collaborate with other agencies. Generally, the topics covered during an
interview included:

   •    Sources of information about §404 violations, e.g., citizen complaints and Corps personnel.
   •    Effect of recent changes to jurisdictional determinations and subsequent case development.
   •    Use of internal and external databases to track violations and case development.
   •    Use of field-level agreements and other documents to improve collaboration.
   •    Effectiveness of remote sensing and other surveillance techniques for identifying §404
        violations.

Review of EPA’s Enforcement Database and Selection of Final Enforcement Actions

We reviewed EPA’s Enforcement and Compliance History Online database for specific
information regarding enforcement actions taken by EPA Regions 1, 3, 4, 5, 7, and 8 under
CWA §404 between October 1, 2003, and September 30, 2008. During this time, these regions
took 340 final enforcement actions under CWA §404. We judgmentally selected 59 actions
(see Table A-1) to discuss during regional interviews, including those:

   •    That were identified as flagrant, egregious, or repeat violations in the case narrative;
   •    That represented the majority of States located within the region;
   •    Where violations occurred across more than one EPA region;
   •    With a variety of wetlands types, impact sizes, and types of violators (e.g., individuals,
        municipalities, corporations, and developers);
   •    With high penalty amounts (a proxy for the size of the violation); and
   •    With high compliance action costs (also a proxy for the size of the violation).

  Table A-1: Section 404-related Final Enforcement Actions Selected for Further Review
       Region 1          Region 3      Region 4         Region 5      Region 7       Region 8
   01-2000-0017    03-2004-0309     04-2008-5504    05-2001-0704   07-2007-0144   08-2006-0052
   01-2004-2047    03-2005-0270     04-2005-5754    05-2008-8201   07-2007-0125   08-2007-0174
   01-2005-2007    03-2006-0085     04-2007-5754    05-2008-8202   07-2005-0163   08-2003-0822
   01-2006-2027    03-2006-0173     04-2003-9032    05-2008-8203   07-2004-0332   08-2005-0196
   01-2008-2030    03-2007-0203     04-2008-5767    05-2007-0612   07-2007-0159   08-2005-0213
   01-2008-2031    03-2000-0281     04-2008-5501    05-1997-0371   07-2007-0206   08-2007-0016
   01-2008-2032    03-2005-0357     04-2008-5502    05-2006-2347   07-2007-0122   08-2004-0212
   01-2008-2515                     04-2008-5503    05-2005-0502   07-2008-0072   08-2005-0164
                                    04-2004-5751    05-2003-0723   07-2008-0073   08-2004-0209
                                    04-2004-5752                                  08-2005-0167
                                    04-2004-5753                                  08-2008-0060
                                    04-2004-5754                                  08-2007-0173
                                    04-2002-9008
                                    04-2006-5755

  Source: OIG analysis




                                                   16
                                                                                      10-P-0009


During interviews with regional wetlands enforcement personnel, the team sought to learn for
each case:

   •   When EPA or the Corps discovered the violation or received a complaint/referral,
   •   When EPA became the lead enforcement agency,
   •   Details about the violation, and
   •   Information sources used to develop the case.




                                              17
                                                                                       10-P-0009


                                                                                  Appendix B

                                Agency Response
                                        October 9, 2009

MEMORANDUM

SUBJECT:      Evaluation Report: “EPA Needs a Better Strategy to Identify Violations of
              Section 404 of the Clean Water Act,” Project No.OPE-FY08-0006

FROM:         Cynthia Giles
              Assistant Administrator

TO:           Wade Najjum
              Assistant Inspector General for Program Evaluation
              Office of Inspector General


        On behalf of the Deputy Administrator and the Office of Water (OW), I am writing to
transmit EPA's comments on the subject Report. We appreciate the opportunity to respond to the
Office of Inspector General's (OIG) findings and recommendations as reported in “EPA Needs a
Better Strategy to Identify Violations of Section 404 of the Clean Water Act.” We would like to
thank you and your staff for your willingness to meet to resolve comments and to discuss your
findings, and for incorporating many of our specific comments and corrections on the discussion
draft. We believe that this collaborative approach is important to achieving a more accurate and
effective Report. The Agency agrees that it could improve the effectiveness of its Section 404
enforcement program by taking a more proactive approach to detecting and enforcing violations,
and that the OIG’s suggestions are helpful in identifying areas where the enforcement program
could be strengthened.

        As your report notes briefly, the recent SWANCC and Rapanos decisions have had a
significant impact on enforcement targeting and case development. Because of the increased
evidentiary burdens imposed by these cases, EPA is now required to devote significant resources
to jurisdictional determinations before it decides whether to pursue an enforcement case. This
has had the effect of diverting scarce resources away from activities designed to detect Section
404 violations. This issue will continue to impact any enforcement strategy developed by the
agency. We encourage the OIG to consider emphasizing these challenges more fully in the final
Report.

        EPA agrees with the first recommendation in the Report to develop and implement a
comprehensive section 404 enforcement strategy. EPA may initially focus or pilot an
enforcement strategy in a particular watershed, such as the Chesapeake Bay. The results of the
pilot could then be used to inform the development of a national strategy. An enforcement
strategy should include, among other things, a more proactive approach to enforcement,
including more effective coordination with the Army Corps of Engineers (the Corps). With


                                               18
                                                                                     10-P-0009


respect to the second recommendation, EPA believes that we should develop and gain experience
with a section 404 enforcement strategy before embarking on a revision of the 1989
Memorandum of Agreement (MOA) with the Corps. We recognize that the Corps is a
significant source of information to EPA on potential violators and would be collaborating
closely with it in implementing a new strategy. Once EPA implements the new enforcement
strategy or completes any pilot, it would have a much clearer understanding of whether, and to
what extent, the MOA should be revised.

        We appreciate the opportunity to review and comment on this draft Report. Please see
our attached detailed comments to each of the issues and recommendations. Should you have
any questions or concerns regarding this response, please contact EPA’s Audit Liaison,
Gwendolyn Spriggs, at 202-564-2439.


Attachment




                                              19
                                                                                     10-P-0009


                          EPA Response to OIG Draft Report
  EPA Needs a Better Strategy to Identify Violations of Section 404 of the Clean Water Act
                               Project No. OPE-FY08-0006

I. EPA’s Response to Report Recommendations

      Report Recommendation 2-1:

      Develop and implement a comprehensive CWA Section 404 enforcement strategy
      that should address, but not be limited to, the following areas:

      a. Creation of a national tracking system for complaints and referrals from the
         Corps, as well as repeat and flagrant Section 404 violators;

      b. Improved communication and coordination between EPA Headquarters/regions
         and Corps Headquarters/districts;

      c. Barriers to enhanced interagency communication (and mechanisms to overcome
         these barriers) with the Corps, as well as other federal agencies (e.g. NRCS,
         FWS, and Civil Air Patrol);

      d. The feasibility of leveraging other CWA program resources to more
         systematically identify Section 404 violations;

      e. The adequacy of EPA's current performance measurement system for the
         Section 404 enforcement program;

      f. Cross-training opportunities with federal, state, and other stakeholders.

      Comment:

      EPA agrees with Recommendation 2-1 and plans to develop, in consultation with OW
      and the Regional offices, and in collaboration with the Corps as appropriate, an
      appropriate enforcement strategy. In developing the strategy, EPA will comprehensively
      evaluate the program, including each of the sub-recommendations (a)-(f) to determine
      whether each of these elements is essential to an effective enforcement strategy.

      With respect to Recommendation 2-1, EPA would like to retain the discretion to
      thoroughly evaluate the sub-recommendations (a)-(f) before deciding whether to include
      all, or only some of, them in the Section 404 enforcement strategy. This opportunity for
      evaluation will enable EPA to determine which elements are essential to an efficient and
      effective Section 404 enforcement strategy. EPA might initially pilot or focus such an
      enforcement strategy in the Chesapeake Bay watershed to determine which elements are
      most effective. This experience will help EPA to further refine the Section 404
      enforcement strategy.




                                             20
                                                                                      10-P-0009


      Report Recommendation 2-2:

      Revise, in collaboration with the Assistant Secretary of the Army for Civil Works,
      the 1989 MOA to clarify the types of cases that should be referred to EPA or the
      Corps; the revised MOA should update the procedures for case referrals.

      Comment:

      While EPA agrees that improved coordination with the Corps is essential to a more
      proactive Section 404 enforcement program, EPA believes that implementing an
      enforcement strategy should inform any decision on revisions to the existing MOA with
      the Corps. EPA proposes the following language as a substitute:

      “After development of a comprehensive enforcement strategy consistent with
      Recommendation 2-1, EPA will evaluate whether the enforcement strategy has
      effectively addressed the issues raised in the Report, and, if not, consider whether it is
      necessary to revise the 1989 MOA to clarify the types of cases that should be referred and
      the processes for making case referrals.”

II. EPA's Specific Comments and Corrections on Text of the Report

      FINDINGS SECTION

      Finding: EPA Lacks a Unified Framework to Manage the Section 404 Enforcement
      Program

      EPA agrees that a successful Section 404 enforcement program must focus on actively
      pursuing Section 404 violations through enforcement targeting and other proactive
      approaches. Approaches such as using field inspections primarily intended to investigate
      other types of CWA violations (e.g., Section 402 and Section 311) to also discover
      violations of Section 404 should be expanded as part of a Section 404 enforcement
      strategy. In addition, the Agency has implemented various initiatives, such as the
      Tulloch ditching initiative, that have been successful in discovering large numbers of
      violations involving certain types of activities or located in certain geographic regions.
      An enforcement initiative, perhaps piloted in a particular watershed such as the
      Chesapeake Bay, could serve as a template for the development of similar enforcement
      targeting approaches as part of a new enforcement strategy.

      Finding: EPA Relies on External Sources for Violation Knowledge

      In earlier discussions with the DIG, the Agency commented that, because Section 404 of
      the CWA does not provide a statutory requirement for the regulated public to self-report
      information to the Agency about wetlands activities, EPA has historically relied on
      external sources such as tips and complaints, and referrals from the Corps, to learn about
      Section 404 violations. While EPA agrees that tips and complaints should not be the sole
      foundation of an effective enforcement program, these sources of information can be an



                                              21
                                                                                 10-P-0009


important part of a successful enforcement strategy. When combined with other, more
proactive, approaches to discovering violations tips and complaints represent a successful
coordination between EPA and its governmental partners and private citizens, and allow
for public participation in wetlands enforcement efforts. Tips and complaints can also be
a very important source of information about significant Section 404 violations, as well
as of smaller, more discrete, violations that may otherwise go undetected. Finally,
although the Corps might be viewed as an “external source” of information, EPA believes
that it more accurate to characterize its relationship with the Corps as that of “co-
regulator.” EPA believes that it is critical that the two agencies freely exchange
information so as to improve Section 404 enforcement throughout the federal
government.

Finding: Jurisdictional Uncertainty Has Further Impaired EPA's Ability to
Address Section 404 Violations

We respectfully submit that the effect that the SWANCC and Rapanos decisions have
had on the Agency’s Section 404 enforcement program cannot be overstated. The
SWANCC and Rapanos decisions, and the inconsistent positions taken by the lower
courts in response, have created such uncertainty about the scope of CWA jurisdiction
that EPA must carefully evaluate whether it would be an appropriate use of Agency
resources to pursue particular Section 404 violations in pans of the arid west, where the
violations are located a great distance from a traditional navigable water, or where the
costs of proving jurisdiction are disproportionately large. In these circumstances, what
would have normally been considered a clear Section 404 violation prior to SWANCC
and Rapanos, is no longer certain, and would require the expenditure of additional
enforcement resources to support jurisdiction in court.

It is important to recognize that this resource burden begins at the outset of any
investigation of alleged wetlands violations. The Agency may expend substantial
resources only to determine jurisdiction is problematic, and the case will no longer be
pursued. Because of the resources necessary to prove jurisdiction, the Agency may
choose to devote its limited resources to cases where jurisdiction is less uncertain. The
result is that a large percentage of waters that would have been protected under Section
404 prior to SWANCC and Rapanos, such as headwater or ephemeral streams, streams in
arid parts of the country and isolated waters may receive less attention from the Agency
because of the costs of proving jurisdiction in these cases. We request that this section
even more strongly emphasize the impact of these decisions on the enforcement program.
We also request that this section be emphasized in an earlier section of this Report to
more accurately capture the significance that these issues have had on the Section 404
enforcement program.




                                        22
                                                                                        10-P-0009


                                     Technical Corrections

Beyond the substantive issues discussed in the comments, above, EPA would also like to suggest
additional editorial revisions to clarify certain factual issues in the Report.

1. The Report states that OWOW is developing an interface with the Corps’ national database
   that will “only provide EPA staff with Corps’ permit data.” In fact, the computer interface
   being developed by the OWOW to exchange data with the Corps’ national regulatory
   database will provide access to Corps’ permit data as well as data on Clean Water Act
   jurisdiction. The second-to last sentence at the bottom of page 7 should be modified to
   reflect this.

2. The Report states on page 8 that there is little consistency among the regions and Corps
   districts regarding the processes and procedures for referral of cases to EPA. The Report
   notes that, in some cases, this may result in uncertainty or confusion about who should be the
   lead enforcement agency. While this uncertainty may cause delay in certain enforcement
   cases, the Agency believes that the characterization that this uncertainty “could force [Corps]
   District[s] to initiate a review of a violator's application for an after-the· fact permit” is
   overstated. The Corps is not “forced” to issue or even consider an after-the-fact permit in
   response to a potential Section 404 violation. Instead, in choosing to issue after-the-fact
   permits the Corps is making a policy decision. EPA’s view is that after-the-fact permits
   should not be issued in lieu of enforcement actions where an enforcement action is warranted
   and appropriate. Would ask that the last sentence of the third paragraph in this section be
   replaced with the following:

   “Uncertainty about which agency has the lead enforcement status during this period can
   result in some delay. During this period, the Districts may choose to initiate the review of a
   violator’s application for an after-the-fact permit, although EPA does not believe that after-
   the-fact permits should be issued in lieu of enforcement action.”

3. On page 10, the Report refers to an enforcement case in Region 5 against a large coal mine in
   Indiana as evidence of a lack of coordination between EPA and the state. However,
   according to Region 5, EPA did, in fact, participate in interagency meetings with the Indiana
   Department of Environmental Management, Indiana Department of Natural Resources and
   the Corps as early as April 2007 to share information and coordinate EPA’s enforcement
   response in this particular case. We therefore request that this particular example be deleted.




                                                23
                                                                                  10-P-0009


                                                                              Appendix C

                                    Distribution

Office of the Administrator
Acting Deputy Administrator
Assistant Administrator, Office of Enforcement and Compliance Assurance
Assistant Administrator, Office of Water
Principal Deputy Assistant Administrator, Office of Enforcement and Compliance Assurance
Deputy Assistant Administrator, Office of Water
Director, Office of Civil Enforcement, Office of Enforcement and Compliance Assurance
Deputy Director, Office of Civil Enforcement, Office of Enforcement and Compliance Assurance
Acting Director, Office of Wetlands, Oceans and Watersheds, Office of Water
Acting Deputy Director, Office of Wetlands, Oceans and Watersheds, Office of Water
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Affairs
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of Enforcement and Compliance Assurance
Audit Follow-up Coordinator, Office of Water
Acting Inspector General




                                            24
